No.
IN THE
SUPREME COURT OF THE UNITED STATES

MARION TAYLOR
VERSUS

Pietmgf

DARREL YANNOY, WARDEN
LOUISIANA STATE PENITENTIARY
R^sptmdefd(s)

Ob Petition for a wit of Certiorari
to the
U.S. Court Of Appeals, Fifth Circuit Coart No. 20-30274
Before: Clement, Elrod and Haynes, Circuit Judge.
The U.S. District Court, Eastern District Of Louisiana
Before: Martin L. C. Feldman, District Judge

APPENDIX TO
APPLICATION OF MARION TAYLOR

Pro Sc
Marian Taylor #558611
Main Prison/Oak-1
Louisiana State Penitentiary
17544 Tunica Trace
Angola, Louisiana 70712
U.S. Solicitor General
Department OfJusfe Rm. 5614
950 Pennsylvania Awe., N.W.
Washington, D.C. 20580-0001

»

1

lab
U.S. FifHi Circuit Court of Appeals Judgments Taylor.

Appx (A)

U.S. Fifth Circuit Court of Appeals Rehearing Taylor.

Appx(A)(l)

U.S. District Com! Judgment Taylor.
U.S. magistrate Judge, Findings and Recommendations.

Appx (B)
Apx(B)(l)

Louisiana Supreme Court Judgment Taylor.

Appx(C)

Louisiana Fourth Circuit Couit of Appeals Judgment Taylor.

Appx(D)

Certificate Of Service
Certificate Of Service

»

Case: 20-30274 t

Document: 00515896746

Page: 1

Date Filed: 06/11/2021

Umteb States Court of Appeals
for tfjr Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-30274

FILED
June 11, 2021

Marion Taylor

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:13-CV-462

Marion Taylor, Louisiana prisoner # 558611, was convicted of second
degree murder and sentenced in 2009 to serve life in imprisonment without
the benefit of parole, probation, or suspension of sentence. Now, he moves
this court for a certificate of appealability (COA) to appeal the district court’s
dismissal of the Federal Rule of Civil Procedure 60/hi motion that he filed
with respect to the dismissal of his 28 U.S.C. S 2254 habeas corpus petition.
He argues that there was a fraud upon the court and a defect in the integrity
of his habeas proceeding under Rule 60(b)(6).

V

A COA may issue only when the movant makes “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. S 2253(c.)(2): see

( a’

Case: 20-30274

Document: 00515896746

Page: 2

Date Filed: 06/11/2021

No. 20-30274

Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). To obtain a COA, Taylor
must establish that reasonable jurists would find the district court’s
resolution of his constitutional claims debatable or wrong, see Slack v.
McDaniel, 529 U.S. 473. 483-84 (2000), or that the issues he presents “are
adequate to deserve encouragement to proceed further,” Miller-El, 537 U.S.
at 327. Specifically, with respect to the denial of Rule 60(b) relief, he must
show that “a jurist of reason could conclude that the district court’s denial
of [the Rule 60(b)] motion was an abuse of discretion.” Hernandez v. Thaler,
630 F.3d 420, 428 (5th Cir. 2011). Because Taylor has not met these
standards, his COA motion is DENIED.
/s/Jennifer Walker Elrod
Jennifer Walker Elrod
United States Circuit Judge

2

Case: 20-30274

Document: 00515934458

Page: 1

Date Filed: 07/12/2021

ii

fimteb States Court of Appeals
for tlje Jfiftt) Circuit
No. 20-30274
Marion Taylor,
Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:13-CV-462
ON PETITION FOR REHEARING EN BANC
Before Clement, Elrod, and Haynes, Circuit Judges.
Per Curiam:
Treating the petition for rehearing en banc as a motion for
reconsideration (5th Cir. R. 35 I.O.P.), the motion for reconsideration
is DENIED. Because no member of the panel or judge in regular active
service requested that the court be polled on rehearing en banc (Fed. R.
App. P. 35 and 5th Cir. R. 35), the petition for rehearing en banc is
DENIED.

4-

-'wfe-'

A*

t

1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

MARION TAYLOR

*

CIVIL ACTION

versus

*

NO. 13-0462

N. BURL CAIN, WARDEN

*

SECTION "F"

ORDER AND REASONS
Before the Court is Marion Taylor's Rule 60(b) (6) motion for
For the reasons that follow, the motion is

relief from judgment.

DISMISSED for lack of jurisdiction.

Before pursuing the relief

sought, the movant must first obtain pre-filing authorization from
the U.S. Court of Appeals for the Fifth Circuit.
Background
Marion

Taylor,

Louisiana

prisoner

#558611,

is

serving

a

lifetime prison sentence at the Louisiana State Penitentiary in
Angola.
U. 3 .C.

In 2013,

Mr.

Taylor filed a habeas petition under 28

§ 2254 to challenge the constitutionality of his state-

court conviction for second-degree murder.
Court

adopted the magistrate judge's

On July 23, 2015, this

report

and recommendation

that the habeas petition be dismissed with prejudice.
was entered accordingly.

Both

this

Court

Judgment

and the U.S.

Fifth

Circuit Court of Appeals denied Taylor's requests for certificates
1-

V '
%

of appealability

and to proceed in

forma pauperis

on

appeal.

Invoking Rule 60(b)(3), Taylor then sought relief from the
Court's
judgment; the Court denied the motion and again denied his
requests
for a certificate of appealability and to proceed in forma
pauperis
on appeal.
Taylor moved the U.S. Fifth Circuit Court of Appeals
for a certificate of appealability.

On October 3, 2018, U.S. Fifth

Circuit Judge Costa denied Taylor's requests for a certificate of
appealability and to proceed in forma pauperis on appeal, finding
that Taylor's Rule

60(b)(3)

motion was a second
or successive

habeas petition over which this Court lacked jurisdiction.

The

U.S. Supreme Court denied Taylor's petition for certiorari.
for a second time,

Now,

Taylor moves for relief under Rule 60,

this

time invoking subsection (b)(6)
I.
When a state prisoner seeks relief under Rule 60(b)
Federal

Rules

mindful

of

the

of

Civil

Procedure,

interplay between

applicable state habeas petitions.

the
Rule

district
60(b)

and

court
the

of the
must

be

statutes

The Court must make a threshold

determination of whether the motion amounts to a successive § 2254
petition subject to gate-keeping provisions administered solely by
the Court of Appeals.

See United States v.

Jiminez-Garcia,

951

F.3d 704, 705 (5th Cir. 2020)(remanding
case to district court to
determine whether Rule 60 motion filed by federal prisoner amounted
2

t

(.'l

to an unauthorized successive § 2255 motion); Crustinqer v.
Davis,
929 F.3d 259, 266 (5th Cir. 2019) (vacating district
court's order
transferring
successive
successive

petitioner's
petition,

within

motion

to

determining

the
that

appellate
the

the meaning of 28 .U.S.C.

remanding to the district

district court determines

motion
§

as

a

was

not

2244(b) (1),

and

court to consider the

motion in the first instance)

court

Rule

60(b)(6)

If, in its policing function, the

that the prisoner's motion is genuinely

a successive habeas petition disguised as a Rule 60(b)
then the Court must dismiss

motion,

the petition for lack of jurisdiction

or transfer it to the Fifth Circuit Court of Appeals, which has
the singular power to authorize successive habeas petitions.
Rule 60 (b) of the Federal Rules of Civil Procedure allows a
party

to

seek

circumstances
evidence,

relief
such

as

from

a

fraud,

final

judgment

mistake,

and

under

newly

discovered

or "any other reason that justifies
relief."

Civ. P. 60(b).

limited

Fed. R.

Rule 60(b) applies in § 2254 proceedings but only

to the extent [it is] not inconsistent with" applicable federal
law. See- Rule 11 of the Federal Rules
Governing 28 U.S.C. § 2254
Cases.

Rule 60(b) may not be used to circumvent the Antiterrorism

and Effective Death Penalty Act of 1996.
Code,

§

2254,

as amended by the AEDPA,

review for a prisoner in state custody.
3

Title 28, United States
governs

federal habeas

The AEDPA-amended habeas

•• ,J

statutes, § 2244(b) (l)-(3), impose certain requirements on state
prisoner's

ability

Gonzalez v. Crosby,
865 F. 3d 197,

203

to

seek

successive

545 U.S.
(5th . Cir.

524,
2017).

federal

529-30

habeas

review.

(2005); In re Edwards,

"Because of the comparative

leniency of Rule 60(b), prisoners sometimes attempt to file what
are in fact second-or-successive habeas petitions under the guise
In re Edwards, 865 F.3.d at 203 (citations

of Rule 60(b) motions."
omitted).

Thus, when a state prisoner requests Rule 60(b) relief,

district courts must scrutinize the motion to determine whether it
properly seeks Rule 60(b) relief or, instead, whether it is a sham
Rule 60(b). motion subject to the AEDPA's preauthorization rules
governing petitions seeking relief under 28 U.S.C. § 2254.
Before a successive habeas petition may be pursued in the
district court,
meets

the

("Before a

the Court of Appeals must first certify that it

requirements
second or

of

§

2244(b) (2) .

See

§

2244 (b) (3) (A)

successive application permitted by this

section is filed in the district court, the applicant shall move
in the appropriate court of appeals for an order authorizing the
district court to consider the application") and § 2244 (b) (3) (C)
("The court of appeals may authorize the filing of a second or
successive application only if it determines that the application
makes a prima facie showing that the application satisfies the
requirements of this subsection.").
4

The. district court must ensure

that

state

prisoners

do

not

circumvent

these

statutory

requirements by filing Rule 60(b) motions that are functionally
.In other words, the AEDPA "divests

successive habeas petitions.
the

district

successive

of

court

habeas

jurisdiction

petitions;

thus,

to

consider

once

the

unauthorized

district

court

conclude[s that a petitioner's Rule 60] motion [i]s a successive
2254 habeas petition, it [must] dismiss[] the motion or transfer[]
it to the [Court of Appeals] for authorization."
782

Fed.Appx.

297,

298

n.l

(5th

Cir.

Gamboa v. Davis,

2019) (unpublished,

per

curiam)(citations omitted).
To determine whether a prisoner's Rule 60(b) motion is,
substance,

a

second

consults Gonzalez v.
textual

matter,

§

or

successive

Crosby,

2244(b)

habeas

545 U.S.

applies

524,

only

petition,
535

where

the

in

Court

(2005) (" [A] s a
the

court

acts

pursuant to a prisoner's 'application for a writ of habeas corpus,'
and courts therefore must decide whether a Rule 60(b) motion filed
by a habeas petitioner is a
statute uses that term.").
guidelines

for

determining

'habeas corpus application'

as the

There, the Supreme Court articulated
the

circumstances

under

which

a

district court may properly consider a Rule 60(b) motion in a §
2254 habeas proceeding.

If the so-called Rule 60(b) motion either

"(1) presents a new habeas claim (an 'asserted basis for relief
from a state court's judgment of conviction'), or (2)
5

'attacks the

• .•*

federal court's previous resolution of a claim on the merits,

r //

then the motion "should be treated as a second-or-successive habeas
petition and subjected to AEDPA's limitation on such petitions."
In re Edwards,
531-32) .

865 F.3d at 203-04

(citing Gonzalez,

545 U.S.

at

By contrast, a district court may consider a Rule 60(b)

motion in a §

2254 proceeding if one of two

circumstances

is

present: if the motion attacks a "defect in the integrity of the
federal habeas proceedings [such as] fraud on the federal habeas
court";

or

if

the

motion

attacks . a

procedural

ruling

"which

precluded a merits determination [such as] a denial [for] failure
to exhaust,

or statute-of-limitations bar."

procedural default,

See Gilkers v. Vannoy,

904 F. 3d 336,

Gonzalez, 545 U.S. at 532 and n.2,

344

3).

(5th Cir.

2018) (citing

A § 2254 applicant need

not satisfy § 2244(b)'s authorization requirement for the district
court to consider a genuine Rule 60(b) motion.

Id. at 343.

II.
A.

Mr.

Taylor's Rule

habeas petition;

60(b)

motion is

a disguised

successive

the AEDPA's gate-keeping provisions divest the

Court of jurisdiction to entertain this successive motion unless
and until a panel of the Fifth Circuit authorizes its filing.
Presented with a post-judgment motion like Taylor's,

which

follows the denial of a § 2254 habeas application, the Court must
6

determine

whether

the

movant

has

accurately

characterized the

motion or whether he, in fact, seeks habeas relief.

A Rule 60(b)

motion that raises new substantive claims or attacks the district
court's

merits-based -resolution

of

successive § 2254 habeas application.

prior

§

2254

claims

is

a

Where, as here, a Rule 60(b)

motion is truly a successive ;§ 2254 application, the Court lacks
jurisdiction to consider it absent authorization from the Court of
Appeals.
Rather than confining his request for relief to a non-merits
aspect

of

the

original

federal

habeas

proceeding,

Mr.

I

Taylor

attempts to re-urge his argument that aspects of the state trial
violated his constitutional right to confront witnesses against
Taylor first invokes Gonzalez v. Crosby,

him.

545 U.S. 542,

532
i

(2005)
than

to suggest that he pursues a true Rule 60 motion rather
an unauthorized

or

successive

habeas

petition.

But

his

characterization does not control; he merely pays lip service to
the standard the Court must apply to determine whether his socalled Rule 60 motion is functionally equivalent to a successive
habeas

beyond

determine

whether

Court

his

motion

to

successive

habeas

petition.

characterization
unauthorized

look

The

petition.
of

must

Taylor

Taylor's
it

is

an

purports

to

challenge a "defect in the integrity" of his habeas proceeding,
but he fails to.identify any defect.
7

He also summarizes the law

on Article III standing and appears to take issue with what he
sees

as

the

Court's

jurisdiction

in

refusal

to

exercise

adopting

the

Taylor

merely

Recommendation.

its

magistrate

federal

judge's

regurgitates

question
Report

standards

&
not

Considering the

apparently applicable to the relief he seeks.

only substantive portion of the so-called Rule 60 motion reveals
its true objective: Taylor alludes to a "factual determination" by
the state court and a defendant's constitutional right to effective
It is this

cross-examination.

confrontation clause right that
in his

Taylor has invoked at least twice before in this Court:

initial habeas petition and, again, in a previous motion he styled
as

one

seeking

60(b)

Rule

relief,

which

the

Fifth

Circuit
This

determined was an unauthorized successive habeas petition.
latest filing,

too,

is a quintessential unauthorized successive

habeas petition.

To be sure, "[a] petition is successive when it

'raises a claim

. . .

earlier

petition

that was or could have been raised in an

...."

See

In

re

Edwards,

(citations omitted); see also § 2244(b) (1) .

865

F. 3d

at

203

Absent authorization

from the Fifth Circuit, this Court lacks jurisdiction to consider
confrontation

clause

challenges

previously

considered

and

rej ected.
Mr. Taylor does not challenge the integrity of the federal
habeas corpus proceeding; he challenges its outcome.
A

This requires

« .*

Accordingly, IT

pre-filing authorization from the Fifth Circuit.
IS

ORDERED:

that

Taylor's

motion

is

DISMISSED

for

lack

of

Taylor

to

merits

of

jurisdiction.
B.

the

Because
proceed,

the

Fifth

Circuit

is

Court

has

precluded

not

from

authorized

reaching

the

Taylor's successive habeas petition; thus, the Court finds that an
order denying a certificate of appealability is not required by 28
U.S.C.

Cf. United States v.

§ 2253.

Fulton,

780 F. 3d 683,

688

(5th Cir. 2018)(citation omitted)("The transfer of an unauthorized
§

2255

petition

2253(c)(1)(B)

is

[and,

thus,

literature

a

on

final

an]

However,

require a COA.").
case

not

whether

order

under

2 8.

U.S.C.

§

appeal of such an order does not
there is some inconsistency in the
a

certificate

of

appealability

is

necessary when a district court determines that a prisoner's post
judgment

motion

authorization.
250

(5th Cir.

Quarterman,

is

a

successive

petition

requiring

pre­

Compare id. with Gonzales v. Davis, 788 Fed.Appx.
2019)(declining to consider whether Resendiz v.

454 F.3d 456,

458

(5th Cir. 2006)

which held that

a district court's dismissal of a motion on the ground that it is
an unauthorized successive collateral attack constitutes a final
order within the scope of 28 U.S.C. § 2253(c), and, therefore, a
certificate of appealability is required — was tacitly overruled
-9-

•

l1

by the Supreme Court in Harbison v. Bell,

556 U.S. 180

(2009)),

petition for certiorari docketed, 2/19/20; see also, e.q., United

Cir.

2020 WL 1650652, at *2

Fed.Appx.

States v. Akers,

(10th

2020) (dismissal of petition for lack of jurisdiction is a

procedural ruling and,

to appeal it,

the petitioner must first

obtain a COA); United States v. McRae, 793 F.3d 392, 398 (4th Cir.
2015) (acknowledging the incongruity of granting a COA only to hold
that the district court lacked jurisdiction, and holding that the
COA requirement in § 2253(c) allows the Circuit Court to review,
without

first

issuing a COA,

an order dismissing a Rule

motion as an improper successive habeas petition).

60(b)

Accordingly,

in an abundance of caution, IT IS ORDERED: that a certificate of
appealability

shall

not

be

issued

for

the

following

reasons.

Taylor has failed to make a substantial showing of the denial of
The petitioner has failed to show:.that

a constitutional right.

reasonable jurists could debate whether the motion should have
been resolved or characterized in a different manner; or that the
issues presented were adequate to deserve encouragement to proceed
further;

or,

insofar

as

the

characterization

issue

is

merely

procedural, that jurists of reason would find it debatable whether
the Court was correct in its procedural ruling.

in

■«'

*

***

For the foregoing reasons, IT IS ORDERED: that Taylor's motion
is

DISMISSED

for

lack

of

jurisdiction

and

no

certificate

of

appealability shall be issued.
New Orleans, Louisiana, April 9_, 2020

MARTIN L
UNITED STATE

1-i-

C. FELDMAN
DISTRICT JUDGE

!
1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

MARION TAYLOR

CIVIL ACTION

versus

NO. 13-462

N. BURL CAIN, WARDEN

SECTION: "F" (3)

REPORT AND RECOMMENDATION
This matter was referred to this United States Magistrate Judge for the purpose of
conducting a hearing, including an evidentiary hearing, if necessary, and submission of proposed
findings of fact and recommendations for disposition pursuant to 28 U.S.C. § 636(b)(1)(B) and (C)
and, as applicable, Rule 8(b) of the Rules Governing Section 2254 Cases in the United States
District Courts. Upon review of the record, the Court has determined that this matter can be
disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2). Therefore, for all of the
following reasons, IT IS RECOMMENDED that the petition be DISMISSED WITH
PREJUDICE.
Petitioner, Marion Taylor, is a state prisoner incarcerated at the Louisiana State
Penitentiary, Angola, Louisiana. On August 28, 2009, he was convicted of second-degree murder
under Louisiana law.1 On September 18, 2009, he was sentenced to a term of life imprisonment

i

State Rec., Vol. VII of X, trial transcript, p. 394; State Rec., Vol. I of X, minute entry dated
■August 2872069rState-Rec—Vol-.'I-of-Xrjury-verdiet-Pormv ------------------------------ ----------- —

%

without benefit of probation, parole, or suspension of sentence.2 On May 11, 2011, the Louisiana
Fourth Circuit Court of Appeal affirmed his conviction and sentence.3 The Louisiana Supreme
Court then denied his related writ application on January 20, 2012.4
On or about March 12,2013, petitioner filed the instant federal application for habeas
corpus relief.5 The state concedes that the application is timely.6
I. Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA")
comprehensively overhauled federal habeas corpus legislation, including 28 U.S.C. § 2254.
Amended subsections 2254(d)(1) and (2) contain revised standards of review for pure questions of
fact, pure questions of law, and mixed questions of both. The amendments "modified a federal
habeas court's role in reviewing state prisoner applications in order to prevent federal habeas 'retrials'
and to ensure that state-court convictions are given effect to the extent possible under law." Bell v.
Cone. 535 U.S. 685, 693 (2002).
As to pure questions of fact, factual findings are presumed to be correct and a federal
court will give deference to the state court's decision unless it "was based on an unreasonable

2 State Rec., Vol. VII of X, transcript of September 18,2009, p. 9; State Rec., Vol. I of X, minute
entry dated September 18, 2009.
3 State v. Collins. 65 So.3d 271 (La. App. 4th Cir. 2011); State Rec., Vol. Ill of X.
4 State v. Collins. 78 So.3d 140 (La. 2012); State Rec., Vol. II of X.
5 Rec. Doc. 3.
6 Rec. Doc. 11, p. 11.
-2'

determination of the facts in light of the evidence presented in the State court proceeding." 28
U.S.C. § 2254(d)(2); see also 28 U.S.C. § 2254(e)(1) ("In a proceeding instituted by an application
for a writ of habeas corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and convincing
evidence.").
As to pure questions of law and mixed questions of law and fact, a federal court must
defer to the state court's decision on the merits of such a claim unless that decision "was contrary
to, or involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States." 28 U.S.C. § 2254(d)(1). Courts have held that the "'contrary
to' and 'unreasonable application' clauses [of § 2254(d)(1)] have independent meaning." Bell, 535
U.S. at 694.
Regarding the "contrary to" clause, the United States Fifth Circuit Court of Appeals
has explained:
A state court decision is contrary to clearly established precedent if
the state court applies a mle that contradicts the governing law set
forth in the [United States] Supreme Court’s cases. A state-court
decision will also be contrary to clearly established precedent if the
state court confronts a set of facts that are materially
indistinguishable from a decision of the [United States] Supreme
Court and nevertheless arrives at a result different from [United
States] Supreme Court precedent.
Wooten v. Thaler. 598 F.3d 215, 218 (5th Cir. 2010) (internal quotation marks, ellipses, brackets,
and footnotes omitted).

Regarding the "unreasonable application" clause, the United States Supreme Court
has held: "[A] state-court decision is an unreasonable application of our clearly established
precedent if it correctly identifies the governing legal rule but applies that rule unreasonably to the
facts of a particular prisoner's case." White v. Woodall. 134 S. Ct. 1697, 1706 (2014). However,
the Supreme Court cautioned:
Section 2254(d)(1) provides a remedy for instances in which a state
court unreasonably applies this Court's precedent; it does not require
state courts to extend that precedent or license federal courts to treat
the failure to do so as error. Thus, if a habeas court must extend a
rationale before it can apply to the facts at hand, then by definition
the rationale was not clearly established at the time of the state-court
decision. AEDPA's carefully constmcted framework would be
undermined if habeas courts introduced rules not clearly established
under the guise of extensions to existing law.
Id- (citations and quotation marks omitted). Therefore, when the Supreme Court's "cases give no
clear answer to the question presented, let alone one in [the petitioner's] favor, it cannot be said that
the state court unreasonably applied clearly established Federal law." Wright v. Van Patten. 552
U.S. 120, 126 (2008) (quotation marks and brackets omitted). The Supreme Court has also
expressly cautioned that "an unreasonable application is different from an incorrect one." Bell. 535
U.S. at 694. Accordingly, a state court's merely incorrect application of Supreme Court precedent
simply does not warrant habeas relief. Puckett v. Epps. 641 F.3d 657, 663 (5th Cir. 2011)
("Importantly, 'unreasonable' is not the same as 'erroneous' or 'incorrect'; an incorrect application of
the law by a state court will nonetheless be affirmed if it is not simultaneously unreasonable.").
While the AEDPA standards of review are strict and narrow, they are purposely so.
As the United States Supreme Court has held:
4-

[E]ven a strong case for relief does not mean the state court's contrary
conclusion was unreasonable.
If this standard is difficult to meet, that is because it was
meant to be. As amended by AEDPA, § 2254(d) stops short of
imposing a complete bar on federal court relitigation of claims
already rejected in state proceedings. It preserves authority to issue
the writ in cases where there is no possibility fairminded jurists could
disagree that the state court's decision conflicts with this Court’s
precedents. It goes no farther. Section 2254(d) reflects the view that
habeas corpus is a guard against extreme malfunctions in the state
criminal justice systems, not a substitute for ordinary error
correction through appeal. As a condition for obtaining habeas
corpus from afederal court, a state prisoner must show that the state
court’s ruling on the claim being presented in federal court was so
lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility forfairminded
disagreement.
Harrington v. Richter. 562 U.S. 86, 102-03 (2011) (citations omitted; emphasis added); see also
Renico v. Lett. 559 U.S. 766,779 (2010) ("AEDPA prevents defendants - and federal courts - from
using federal habeas corpus review as a vehicle to second-guess the reasonable decisions of state
courts.").
The Supreme Court has expressly warned that although "some federal judges find [28
U.S.C. § 2254(d)] too confining," it is nevertheless clear that "all federal judges must obey" the law
and apply the strictly deferential standards of review mandated therein. White v. Woodall. 134 S.
Ct. 1697, 1701 (2014).
II. Facts
Petitioner and co-defendant Justin Collins were tried jointly for the killing of Jerome
Sparkman, and both defendants were convicted of second-degree murder. On direct appeal, the
Louisiana Fourth Circuit Court of Appeal summarized the facts of the case as follows:

5"

III. Petitioner's Claims
A. Confrontation Clause Violations
Petitioner asserts two claims based on the Confrontation Clause. In his first claim,
he argues that his rights were violated when D.T.l was allowed to testify by closed-circuit video
without a sufficient foundation demonstrating potential harm to the witness. On direct appeal, the
Louisiana Fourth Circuit Court of Appeal denied that claim, holding:
Defendants argue that the trial court improperly allowed D.T.l to
testify by closed-circuit television rather than in the court room.
La. R.S. 15:283 provides, in pertinent part:
A. On its own motion or on the motion of the attorney
for any party, a court may order that the testimony of
a protected person[FN5] who may have been a
witness to or victim of a crime be taken in a room
other than the courtroom and be simultaneously
televised by closed circuit television to the court and
jury, when the court makes a specific finding of
necessity based upon both of the following:
[FN5] A "protected person" includes
a person under the age of seventeen
years who is a witness in a criminal
prosecution. See La. R.S.
15:283(E)(1).
(1) Expert testimony that the child would be likely to
suffer serious emotional distress if forced to give
testimony in open court.
(2) Expert testimony that, without such simultaneous
televised testimony, the child cannot reasonably
communicate his testimony to the court or jury.
The Confrontation Clause of the Sixth Amendment to the
United States Constitution provides that "[i]n all criminal
prosecutions, the accused shall enjoy the right ... to be confronted
T2

4

with the witnesses against him." This right provides "two types of
protections for a criminal defendant: the right physically to face
those who testify against him, and the right to conduct
cross-examination." Cov v. Iowa. 487 U.S. 1012, 1017, 108 S.Ct.
2798, 2801, 101 L.Ed.2d 857 (1988). However, public policy
considerations and necessities may take precedence over
"face-to-face" confrontation. Maryland v. Craig. 497 U.S. 836, 849,
110 S.Ct. 3157, 3165, 111 L.Ed.2d 666 (1990).
In Maryland v. Craig, supra, the United States Supreme Court
reviewed a Maryland statute that allowed a child abuse victim to
testify by one-way closed circuit television where it was shown that
the child witness would suffer serious emotional distress such that the
child could not reasonably communicate. Craig. 497 U.S. at 840-42.
The Court held that if the state makes an adequate showing of
necessity, the state's interest in protecting child witnesses from the
trauma of testifying in a child abuse case is sufficiently important to
justify the use of a special procedure that permits a child witness in
such cases to testify at trial against a defendant in the absence of .
face-to-face confrontation with the defendant. Id., 497 U.S. at 855. •
According to the Court, although the Maryland statute, when
invoked, prevented a child witness from seeing the defendant as he
or she testified against the defendant at trial, the procedure preserved
all of the other elements of the confrontation right: VTlie~chilcl\
’witness must be competent to testify and.musttestify-under oath;ihfei
’def^dantjl2retains —ML, ^opportunity—for^contemporanequs-*
^a-oss-ekamination^andTtKe j udge, jury, andjiefendant.,are., able loi
i^iew-(albeit'by_yideo^jn6nitS)Jhe_^lerheanor_(and-bodv-)^of-the^ii
fitness as he or sKelestifieis." *Id., 497 U.S. at 851. The Craig court
\noted~tfiat although it was aware of the many subtle effects
'face-to-face confrontation may have on an adversary criminal
,proceeding, the presence of these other elements of confrontation oath, cross-examination, and observation of the witness' demeanor adequately ensures that the testimony is both reliable and subject to ,
rigorous adversarial testing in a manner functionally equivalent toy
pthat accorded live, in-person testimony. Id.
Further, in Craig, the Court stated that the requisite finding of
necessity must be a case-specific one. Id., 497 U.S. at 855. The trial
court must hear evidence and determine whether use of the one-way
closed-circuit television procedure is necessary to protect the welfare
of the particular child witness who seeks to testify. Id. The trial
court must also find that the child witness would be traumatized, not
by the courtroom generally, but by the presence of the defendant. Id-,
-1-3

497 U.S. at 856. Denial of face-to-face confrontation is not needed
to further the state’s interest in protecting the child witness from
trauma unless it is the presence of the defendant that causes the
trauma. Id- Finally, the trial court must find that the emotional
distress suffered by the child witness in the presence of the defendant
is more than de minimis, i.e., more than mere nervousness,
excitement or some reluctance to testify. Id. The Court concluded
that, where necessary to protect a child witness from trauma that
would be caused by testifying in the physical presence of the
defendant, at least where such trauma would impair the child's ability
to communicate, the Confrontation Clause does not prohibit use of a
procedure .that, despite the absence of face-to-face confrontation,
ensures the reliability of the evidence by subjecting it to rigorous
adversarial testing and thereby preserves the essence of effective
communication. Id., 497 U.S. at 857.
In the matter sub judice, on the morning of trial, the State
filed a motion to allow the closed-circuit presentation of the
testimony of D.T.l under La. R.S. 15:283, arguing that D.T.l would
likely suffer serious emotional distress and be unable to effectively
communicate his testimony. In support of the motion, the State
offered sworn letters from Drs. Richard Richoux and Rafael Salcedo,
who interviewed D.T. 1 and opined that requiring D.T. 1 to testify live
in the courtroom "would be extremely traumatic and stressful for him
[and] would ... likely ... exacerbate what appeared to be pre-existing
symptoms of a post-traumatic stress disorder."
Dr. Sarah Deland, accepted as an expert in the fields of
general and forensic psychiatry, testified for the State that if D.T.l
were required to testify in open court, he would likely suffer extreme
emotional distress and be unable to reasonably communicate his
testimony to the jury. Contesting Dr. Deland's testimony, the
defendants argue that the factors Dr. Deland gave in support of her
opinion were generalities, none of which was sufficient to support the
trial court's finding that D.T.l would be able to testify if not in the
defendants' presence. Dr. Deland's testimony regarding D.T.l's
ability to testify in the presence of Defendants supported the trial
judge's finding. Dr. Deland testified in part as follows:
[DIRECT EXAMINATION OF DR. DELAND]
A. My findings were that overall I found [D.T.l] to
be a ... fairly intelligent child. He did not present any
14.

overt symptom of ongoing mental illness. However,
he was ... anxious about his situation.
He was able to tell me his version of the
events that he witnessed very clearly without any
difficulty. However, when it came to talking about
coming into court, he became very, very anxious. He
pretty much completely shut down, started drawing,
did not want to talk about it, talked about other things,
got up and down out of his chair, asked to leave the
room.
And so based upon my ... observations [of his
behavior], it was my opinion that it would cause him
extreme emotional distress to come into open court.
Q. And, in your opinion to believe if he were
to testify in open court, would he be able to
communicate with the court ... express what he
experienced?
A. I think that's - I mean - in open court, I
have my doubts about whether or not he would be
able to do that.
* * *

[CROSS EXAMINATION]
Q. Doctor, let me ask you something if you
don't mind. Anyone that's called as a witness, who's
appearing for the first time, whether they're 10 or 44,
there's a degree of anxiousness, nervousness?
A. Yes, I'd agree with that.
* * *

Q. And there's no obvious - you said [D.T.l]
is intelligent?
A. Yes.

T5-

Q. And he recalled everything to you without
any problem?
A. That's correct.
Q. And you said that when you mentioned
about going to court he showed some reluctance, as
most witnesses do, is that correct?
A. Well, I wouldn't really say so much
reluctance as extreme anxiety.
Q. Now, how would you categorize extreme
anxiety?
A. Like I said, he pretty much - he had been
talking to me fairly regularly before, when once that
happened, he really just shut down, meaning he broke
eye contact, he looked down and just started drawing.
He started asking me about extraneous things like
Sponge Bob or how do you spell Sponge Bob, things
like that, getting up and down out of his chair, and
then when I asked to talk to his Mom, he was very
eager to leave. He asked, "So I can leave?"
* * *

Q. And my problem is trying to understand
that this natural fear - as a new attorney is . fearing
going to trial for the first time, or a witness being
called no matter what the age, is very reluctant, and
fearful, and has anxiety - that this is basically what
he's feeling right now because he's never been in the
courtroom. Would you agree with that?
A. Yes.
Q. ... it would cause him extreme emotional
distress?
A. Yes, it would.

1-6

Q. Okay. And, in your opinion, would part of
that be because he was placed in the same room with
the defendants?
A. I'm sure that has - yes.
something to do with it. He is scared.

That has

Q. And you mentioned, when you started
speaking about actually coming into the courtroom
and testifying, he exhibited behavior such as shutting
down, losing eye contact, going off topic, Would
you expect that that would be his behavior if he were
brought into court?
A. Yes. That's one of the things that I based
my - based my opinion upon.
Q. And that would cause him to not
reasonably be able to communicate what he
experienced?
A. Yes.
We find that Dr. Deland's expert testimony conforms to the
Maryland v. Craig. 497 U.S. 836, 849, 110 S.Ct. 3157, 3165, 111
L.Ed.2d 666 (1990) standard that the emotional distress suffered by
the child witness in this case in the presence of the defendant is more
than de minimis, i. e., more than mere nervousness or excitement or
some reluctance to testify. The trial court did not err in allowing
D.T.l to testify outside the presence of the defendants.8
The Louisiana Supreme Court then denied petitioner's related writ application without assigning
additional reasons.9

8

State v. Collins. 65 So.3d 271, 279-82 (La. App. 4th Cir. 2011); State Rec., Vol. Ill of X.

9 State v. Collins. 78 So.3d 140 (La. 2012); State Rec., Vol. II of X.
—1-7-

Under the stringent standards of review mandated by the AEDPA, petitioner may be
granted relief with respect to this claim only if he shows that the foregoing state court decision "was
contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States." 28 U.S.C. § 2254(d)(1). Here, he has not
made that showing for the following reasons.
Obviously, the state court correctly identified the controlling clearly established
federal law, i.e. the Craig decision. In Craig, the United States Supreme Court expressly held that
"where necessary to protect a child witness from trauma that would be caused by testifying in the
physical presence of the defendant, at least where such trauma would impair the child's ability to
communicate, the Confrontation Clause does not prohibit use of a procedure that, despite the
absence of face-to-face confrontation, ensures the reliability of the evidence by subjecting it to
rigorous adversarial testing and thereby preserves the essence of effective confrontation." Craig.
497 U.S. at 857.
|f Moreover, there is simply no basis for this Court to conclude that the state courts
unreasonably applied Craig to the facts of this case. Here, as in Craig, the child witness testified
under oath, was subject to full cross-examination, and was able to be observed by the judge, jury,
and defendants as he testified, thereby adequately ensuring the reliability of evidence. See Craig.
497 U.S. at 857. While petitioner speculates that the procedure was not actually "necessary" to
protect the child witness from trauma which would have impaired his ability to communicate, the
state courts, after careful consideration of the evidence presented, expressly found that the procedure
was necessary. Petitioner has never presented any evidence whatsoever to the contrary. I
4-8-

Accordingly, because petitioner has failed to show that the state court decision was
contrary to, or involved an unreasonable application of, clearly established federal law, the AEDPA
requires this federal habeas Court to defer to the state court decision and reject this claim.10
In his second claim, petitioner argues that his rights under the Confrontation Clause
were violated by the admission of the 911 calls into evidence. On direct appeal, the Louisiana
Fourth Circuit Court of Appeal likewise denied that claim, holding:
Defendants Collins and Taylor argue that the trial court erred
in allowing the 911 tapes into evidence. Defendants contend that
because the callers did not testify, and were thus not subjected to
confrontation, Defendants' Sixth Amendment rights were violated.
In support of Defendants' contention that their right to
confront their accusers was violated, Defendants cite Crawford v.
Washington. 541 U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004),
in which the U.S. Supreme Court found that certain ex parte
examinations, while admissible under hearsay rules, are the type of
testimonial evidence against the accused that the Confrontation
Clause is supposed to prevent. The Supreme Court held that the
Sixth Amendment bars admission of testimonial statements by a
witness who did not appear at trial unless he was unavailable to

10 The undersigned notes that when petitioner's co-defendant, Justin Collins, raised this same
claim in his federal habeas corpus proceeding, the claim was likewise rejected in that case. Collins
v. Cain. No. 13-0251, 2013 WL 4891923, at *8-19 (E.D. La. Sept. 11, 2013). In that case, in an
opinion adopted by the United States District Judge Kurt D. Englehardt, United States Magistrate
Judge Joseph C. Wilkinson, Jr., concluded:
D.T.l's closed-circuit televison testimony was permissible under Craig and
its progeny and was not a violation of the Confrontation Clause. Even if it could be
characterized somehow as a Confrontation Clause violation, however, the cumulative
nature of D.T.l's testimony, the availability and actuality of vigorous and
contemporaneous cross-examination of D.T. 1 via closed-circuit television at trial and
the strength of the State's case against Collins establish that any undermining of
Collins's right to confront D.T.l in person was harmless error.
Id. at *19. Those observations apply with equal force with respect to petitioner.
4-9-

RECOMMENDATION
Accordingly, IT IS RECOMMENDED that the petition for federal habeas corpus
relief filed by Marion Taylor be DISMISSED WITH PREJUDICE.
A party's failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge's report and recommendation within fourteen (14) days after
\1-Y%

being served with a copy shall bar that party, except upon grounds of plain error, from attacking on
appeal the unobjected-to proposed factual findings and legal conclusions accepted by the district
court, provided that the party has been served with notice that such consequences will result from
a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United Services Auto. Ass'n. 79 F.3d 1415,
1430 (5th Cir. 1996) (en banc).18
New Orleans, Louisiana, this twelfth day of May, 2015.

DANIEL E. KNOWLES, III
UNITED STATES MAGISTRATE JUDGE

18 Douglass referenced the previously applicable ten-day period for the filing of objections.
Effective December 1, 2009, 28 U.S.C. § 636(b)(1) was amended to extend that period to fourteen
days.
-2-8-

*

4

l

a" ^
Q

-■?
j*

%\\t£bwpttmt fflflurt at fyefifafa at ^nufemns
STATE OF LOUISIANA

NO.

2011-K-1719

VS.

JUSTIN F. COLLINS AND MARION TAYLOR

IN RE: Taylor, Marion; - Defendant; Applying For Writ of Certiorari
and/or Review, Parish of Orleans, Criminal District Court Div. H,
No. 479-689; to the Court of Appeal, Fourth Circuit, No.
2010-KA-0757;

January 20, 2012
Denied.
JTK
BJJ
JPV
JLW
GGG
MRC

Supreme Court of Louisiana
■Jafiiiar V' 2 G-, 2 01

Deputy Clj|rk of Court
t

Fax:

** * *

May 11 2011 10:37am

P002/028

\ y

NO- 2010-KA-0757

STATE OF LOUISIANA
VERSUS

*

JUSTIN F. COLLINS AND
MARION TAYLOR

*
*
*******

COURT OF APPEAL
FOURTH CIRCUIT
STATE OF LOUISIANA

APPEAL FROM
CRIMINAL DISTRICT COURT ORLEANS PARISH
NO. 479-689, SECTION “H”
Honorable Camille Buras, Judge
******
Judge Terri F. Love
* * * * * *
(Court composed of Judge Patricia Rivet Murray, Judge James F. McKay, HI,
Judge Terri F. Love)
Leon A. Cannizzaro, Jr.
District Attorney
Scott G. Vincent
Assistant District Attorney
619 South White Street
New Orleans, LA 70119

•'•v.

COUNSEL FOR APPELLEE, THE STATE OF LOUISIANA
Sherry Watters
LOUISIANA APPELLATE PROJECT
P. O. Box 58769 ,
New Orleans, LA 70158-8769
COUNSEL FOR DEFENDANT/APPELLANT, JUSTIN COLLINS
John Harvey Craft
LOUISIANA APPELLATE COUNSEL
829 Baronne Street
New Orleans, LA 70113-1102
COUNSEL FOR DEFENDANT/APPELLANT, MARION TAYLOR
<Vk i

MAY* 11,2011

' FaX

May 11 2011 10:39am

P012/028

w . •

shot the victim because she was afraid of Defendant Collins. Later, however, she
stated that both Defendants Collins and Taylor shot the victim!
''*V;

Dr. Samantha Huber, forensic pathologist for the Orleans Parish Coroner’s
Office, performed the autopsy on the victim’s body. The victim suffered three
gunshot wounds to the head and a bruise on the nose. One of the gunshot wounds
was a close-contact wound to the right, back of his head. The area around the
wound bore a muzzle imprint from the murder weapon, soot, and searing. That
wound caused extensive brain damage. Two bullet fragments were retrieved from
this wound. The second wound was to the left, back of the victim’s head. The
shot traveled forward and exited the victim’s right cheek, causing extensive brain
damage. The third wound was a shallow, penetrating injury to the victim’s hand.
That wound was not through-and-through, and appeared as if the bullet ricocheted
or had passed through something prior to entering the victim’s hand. Either of the
head wounds would have been fatal and probably killed the victim almost
instantly.
During his testimony, Mr. Meis also explained that in 2008, he was a
member of the Guardian Angels, a volunteer crime fighting organization. Mr.
Meis exited the store when he heard a shot and a crash, and he noticed a white
vehicle pushing a blue truck through the intersection. Mr. Meis saw children
running and two men exit the vehicle and run down Laurel Street toward Jackson
Avenue. He did not notice whether either man was aimed when exiting the
vehicle. Mr. Meis observed the victim in the vehicle, and, after determining that
he needed medical assistance, Mr. Meis called 911.
ERRORS PATENT
A review for errors patent reveals there are none.
CLOSED-CIRCUIT PRESENTATION OF TESTIMONY

10

Fax:

May 11 2011 10:39am P013/028

!*
r J*

In one of several assignments of error, Defendants argue that the trial court
improperly allowed D.T.l to testify by closed-circuit television rather than in the
court room.
\ •

La. R.S. 15:283 provides, in pertinent part:
A. On its own motion or on the motion df the attorney for any party, a court
may order that the testimony of a protected person5 who may have been,
a witness to or victim of a crime be taken in a room other than the
courtroom and be simultaneously televised by closed circuit television to
the court and jury, when the court makes a specific finding of necessity
based upon both of the following:
(1) Expert testimony that the child would be likely to suffer serious
emotional distress if forced to give testimony in open court.
(2) Expert testimony that, without such simultaneous televised
testimony, the child cannot reasonably communicate his testimony to the
court or jury.
The Confrontation Clause of the Sixth Amendment to the United States

Constitution provides that “[i]n all criminal prosecutions, the accused shall enjoy
the right ... to be confronted with the witnesses against him.”

This right provides

“two types of protections for a criminal defendant: the right physically to face
those who testify against him, and the right to conduct cross-examination.” Coy v.
Iowa, 487 U.S. 1012, 1017, 108 S.Ct. 2798, 2801, 101 L.Ed.2d 857 (1988).
However, public policy considerations and necessities may take precedence over
“face-to-face” confrontation. Maryland v. Craig, 497 U.S. 836, 849, 110 S.Ct.
3157, 3165, 111 L.Ed.2d666 (1990).
In Maryland v. Craig, supra, the United States Supreme Court reviewed a
!

Maryland statute that allowed a child abuse victim to testify by one-way closed
circuit television where it was shown that the child witness would suffer serious
emotional distress such that the child could not reasonably communicate. Craig,
497 U.S. at 840-42. The Court held that if the state makes an adequate showing of
necessity, the state's interest in protecting child witnesses from the trauma of

11

Fax:
** . ♦

May 11 2011 10:39am

P015/028

", J

find, that the emotional distress suffered by the child witness in the presence of the
defendant is more than de minimis, i.e., more than mere nervousness, excitement or
some reluctance to testify. Id. Hie Court concluded that, where necessary to'
protect a child witness from trauma that would be caused by testifying in the
physical presence of the defendant, at least where such trauma would impair the
child's ability to communicate, the Confrontation Clause does not prohibit use of a
procedure that, despite the absence of face-to-face confrontation, ensures the
reliability of the evidence by subjecting it to rigorous adversarial testing and
thereby preserves the essence of effective communication. Id., 497 U.S. at 857.
In the matter sub judice, on the morning of trial, the State filed a motion to
allow the closed-circuit presentation of the testimony of D.T.l under La. RlS.
15:283, arguing that D.T.l would likely suffer serious emotional distress and be
unable to effectively communicate his testimony. In support of the motion, the
State offered sworn letters from Drs. Richard Richoux and Rafael Salcedo, who
interviewed D.T. 1 and opined that requiring D.T. 1 to testify live in the courtroom
“would be extremely traumatic and stressful for him [and] would . . . likely . . .
exacerbate what appeared to be pre-existing symptoms of a post-traumatic stress
disorder.”
Dr. Sarah Deland, accepted as an expert in the fields of general and forensic
psychiatry, testified for the State that if D.T.l were required to testify in open
court, he would likely suffer extreme emotional distress and be unable to
reasonably communicate his testimony to the jury. Contesting Dr. Deland’s
testimony, the defendants argue that the factors Dr. Deland gave in support of her
opinion were generalities, none of which was sufficient to support the trial court’s
finding that D.T.l would be able to testify if not in the defendants’ presence. Dr.
Deland’s testimony regarding D.T. 1 ’s ability to testify in the presence of

13

Fax:

{

May 11 2011 10:39am P016/028

>

Defendants supported the trial judge’s finding. Dr- Deland testified in part as
follows:
[DIRECT EXAMINATION OF DR. DELAND]
A. My findings were that overall I found [D.T. 1] to be a ...
fairly intelligent child. He did not present any overt symptom of ongoing
mental illness. However, he was . . . anxious about his situation.
He was able to tell me his version of the events that he
witnessed very clearly without any difficulty. However, when it came to
talking about coming into court, he became very, very anxious. He pretty
much completely shut down, started drawing, did not want to talk about it,
talked about other things, got up and down out of his chair, asked to leave
the room.
And so based upon my . . . observations [of his behavior], it was my
opinion that it would cause him extreme emotional distress to come into
open court.
Q. And, in your opinion to believe if he were to testify in open court,
would he be able to communicate with the court. . . express what he
experienced?
A. I think that’s-----I mean — in open court, I have my doubts about
whether or not he would be able to do that.
* Jfs sfc

[CROSS EXAMINATION!
Q. Doctor, let me ask you something if you don’t mind. Anyone
that’s called as a witness, who’s appearing for the first time, whether they’re
10 or 44, there’s a degree of anxiousness, nervousness?
A. Yes, I’d agree with that.

Q. And there’s no obvious — you said [D.T.l] is intelligent?
A. Yes.
Q. And he recalled everything to you without any problem?
A. That’s correct.
Q. And you said that when you mentioned about going to court he
showed some reluctance, as most witnesses do, is that correct?
A. Well, I wouldn’t really say so much reluctance as extreme anxiety.
14

Fax:
i

Hay 11 2011 10:39am P017/028

j

Q. Now, how would you categorize extreme anxiety?
A. Like I said, he pretty much — he had been talking to me fairly
regularly before, when once that happened, he really just shut down,
meaning he broke eye contact, he looked down and just started drawing. He
started asking tne about extraneous things like Sponge Bob or how do you
spell Sponge Bob, things like that, getting up and down out of his chair, and
then when I asked to talk to his Mom, he was very eager to leave. He asked,
“So I can leave?”
♦ * *

Q. And my problem is trying to understand that this natural fear — as
a new attorney is fearing going to trial for the first time, or a witness being
called no matter what the age, is very reluctant, and fearful, and has anxiety
— that this is basically what he’s feeling right now because he’s never been
in the courtroom. Would you agree with that?
A. Yes.
Q. ... it would cause him extreme emotional distress?
A. Yes, it would.
Q. Okay. And, in your opinion, would part of that be because he was
placed in the same room with the defendants?
A. I’m sure that has - - yes. That has something to do with it. He is
scared.
Q. And you mentioned, when you started speaking about actually
coming into the courtroom and testifying, he exhibited behavior such as
shutting down, losing eye contact, going off topic. Would you expect that
that would be his behavior if he were brought into court?
A. Yes. That’s one of the things that I based my--based my opinion
upon.
Q. And that would cause him to not reasonably be able to
communicate what he experienced?
A. Yes.
We find that Eh. Deland’s expert testimony conforms to the Maryland v.
Craig, 497 U.S. 836, 849, 110 S.Ct. 3157, 3165, 111 L.Ed.2d 666 (1990) standard
that the emotional distress suffered by the child witness in this case in the presence
of the defendant is more than de minimis, i.e., more than mere nervousness or

15

Fax:

May 11 2011 10:40am

P018/028

n r4
f

.1

*1

excitement or some reluctance to testify. The trial court did not err in allowing
i

U/T.l to testify outside the presence of the defendants.
ADMISSION OF EVIDENCE
ADMISSION OF 911 TAPES
Defendants Collins and Taylor argue that the trial court erred in allowing the
911 tapes into evidence. Defendants contend that because the callers did not
testify, and were thus not subjected to confrontation, Defendants’ Sixth

*

Amendment rights were violated.
In support of Defendants’ contention that their right to confront their *'
accusers was violated, Defendants cite Crawford v. Washington, 541 U S. 36, 124
i

S.Ct. 1354, 158 L.Ed.2d 177 (2004), in which the U. !S. Supreme Court found that
certain ex parte examinations, while admissible under hearsay rules, are the type of
9

testimonial evidence against the accused that the Confrontation Clause is supposed
to prevent. The Supreme Court held that the Sixth Amendment bars admission of f
testimonial statements by a witness who did not appear at trial unless he was
©

%

■

unavailable to testify, and the defendant had a prior opportunity to cross examine
the witness.* Id. In Davis v. Washington, 547 U.S. 813, 822, 126 S.Ct. 2266, 165
L-Ed.2d 224 (2006), specifically in the context of 911 calls, the Supreme Court
>
declared that “[sjtatements are nontestimonial when made in the course of police
investigation under circumstances objectively indicating that the primary purpose
of the interrogation is to enable police assistance to meet an ongoing emergency.”
objectively
Conversely, statements are ‘testimonial whin the circumstances
8
indicate that is no such ongoing emergency, and that the purgp'se of the «
interrogation is to establish or prove past events potentially relevant to later
5 *
s
criminal prosecutions.” Id., 547 U.S. at 822.
In the matter before us, the 911 calls ranged!, from descriptions of suspicious
persons running with guns to people reporting the shooting. Defendants
16

*

Fax:

May 11 2U11 10:41am

P028/028

violated the Fifth, Sixth, and Fourteenth
Amendments. With respect to that ruling, it should
go without saying that a trial judge is not at liberty
to ignore the controlling jurisprudence of superior
courts. Bertrand, 2008-2215, p. 8, 6 So.3d at 743.
This Court cited and relied on Bertrand in State v.
Barbour, 2009-1258 (La. App. 4 Cir. 3/24/10), 35
So.3d 1142, to reject the argument that the trial
court had erred in denying the defendant's motion
to declare La, C.Cr.P. art. 782(A) unconstitutional
as violative of the Fifth, Sixth and Fourteenth
Amendments to the U.S. Constitution.
As stated by the Louisiana Supreme Court in
Bertrand, under current jurisprudence from the
U.S. Supreme Court, non-unanimous twelveperson jury verdicts are constitutional, and La.
C.Cr.P. art. 782(A) is constitutional.
Accordingly, we find no merit in Defendant Taylor’s assignment of error.
Further, even if the trial court erred in failing to declare Louisiana’s jury statutory
scheme unconstitutional, we find that such error was harmless because the jury
verdict against Defendant Taylor was unanimous.
DECREE
Defendants’ convictions and sentences are affirmed.
CONVICTIONS AFFIRMED; SENTENCES AFFIRMED

26

v*

»•

»"**. -J:

C.F.FTTFTC.A TF OF RF.RVTCF.

I certify that the foregoing facts, herein, are hue and accurate setforth in this
petition and thereby, serve a copy on this

day of

2021, on the Orleans Parish Assistant District Attorney's Office, Mr. Gershon Benjamin
Cohen (ADA).

Respectfully submitted,

Marion Taylor #5586
LSP-Main Prison/Oak-1
17544 Tunica Trace
Angola, La. 70712

Appendix

CERTIFICATE OF SERVICE
I certify that the foregoing facts, herein, are hue and accurate setforth in this

day of {jLtfijUS

petition and thereby, serve a copy on this

-f

2021, ori the Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Ave., N.W., Washington, DC 20530-0001, in which an employee of the
United States is a party.

Respectfully submitted,

Marion Taylor #5.^8611
LSP-Mairi Prison/Oak-1
17544 Tunica Trace
Angola, La, 70712

Appendix

